           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
    IMPLEMENTATION OF THE E-VERIFY
         PROGRAM FOR NEW HIRES



   January 2010           A-03-09-29154




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      January 6, 2010                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Implementation of the E-Verify Program for New
           Hires (A-03-09-29154)


           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) use of the
           E-Verify program for new hires.

           BACKGROUND
           E-Verify is a Department of Homeland Security (DHS) program that allows participating
           employers to determine whether newly hired employees are authorized to work in the
           United States. 1 SSA supports DHS in operating and administering this program.
           Employers must register with DHS to access E-Verify. Once registered, participating
           employers can electronically verify employee information taken from the Employment
           Eligibility Verification (Form I-9) against about 455 million records in SSA's Numident 2
           and more than 80 million records in DHS' immigration databases to verify the
           employment eligibility of both citizen and non-citizen new hires.

           The E-Verify program will provide one of the following responses stating that
           employment eligibility is authorized or employment eligibility is given tentative
           nonconfirmation (TNC).

           •   Employment Authorized—The data input by the employer matched the information in
               SSA’s and DHS’ databases, and the new hire is authorized to work in the United
               States.

           1
            Authority for the E-Verify program is found in Title IV, Subtitle A, of the Illegal Immigration Reform and
           Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, as amended (8 U.S.C. § 1324a note).
           2
             The Numident is a record of identifying information (such as name, date of birth [DoB], date of death,
           mother’s maiden name, etc.) provided by the applicant on his or her Application for a Social Security
           Number (Form SS-5) for an original Social Security number (SSN) and subsequent applications for
           replacement SSN cards. Each record is housed in the Numident master file.
Page 2 - The Commissioner

•     SSA TNC—The data input by the employer did not match information in SSA’s
      Numident. If the employee chooses to contest, he or she has 8 Federal workdays to
      visit a local SSA field office to present documentation required to update or correct
      the Numident record.

•     DHS TNC—The data input by the employer for a noncitizen did not match the
      information in DHS’ immigration records and/or the DHS record shows the new hire
      is not authorized to work. If the employee chooses to contest, he or she has
      8 Federal workdays to contact DHS. 3

Memorandum of Understanding

Participating employers must sign an E-Verify Memorandum of Understanding (MoU)
that sets forth the points of agreement between DHS, SSA, and the employer regarding
the employer's participation in the E-Verify program. In addition, the MoU explains
certain features of the E-Verify program and explains the specific responsibilities of
DHS, SSA, and the employer. Included under the employer responsibilities are the
following requirements.

•     The employer agrees to initiate E-Verify procedures for new hires within 3 employer
      business days after each employee has been hired (but after both sections 1 and
      2 of the Form I-9 have been completed)4 and to complete as many steps of the
      E-Verify process as are necessary according to the E-Verify User Manual. The
      employer is prohibited from initiating verification procedures before the employee
      has been hired and before the Form I-9 has been completed.

•     The employer agrees not to use E-Verify for pre-employment screening of
      applicants, in support of any unlawful employment practice, or for any other use not
      authorized by the MoU. Employers must use E-Verify for all new hires, unless an
      employer is a Federal contractor that qualifies for certain exceptions set forth in the
      MoU. 5

•     The employer will not verify selectively and will not verify employees hired before the
      effective date of the MoU. The employer understands that if the employer uses
      E-Verify procedures for any purpose other than as authorized by the MoU, the
      employer may be subject to appropriate legal action and termination of its access to
      E-Verify pursuant to the MoU.



3
    For a detailed description of the E-Verify program and some of its new enhancements, see Appendix B.
4
    See Appendix D for a copy of the Form I-9.
5
 As of September 8, 2009, Federal contractors were required to use E-Verify to confirm that employees
assigned to Federal contracts are allowed to work legally in the United States. Executive Order 13465—
Amending Executive Order 12989, as amended, June 2008, 73 FR 33285.
Page 3 - The Commissioner

Office of Management and Budget

In August 2007, the Office of Management and Budget (OMB) mandated that all
Federal agencies and departments begin verifying their new hires through E-Verify
starting no later than October 1, 2007. 6 According to OMB, the Government has an
opportunity to lead by example by using E-Verify to confirm the employment eligibility of
its workers. Further, E-Verify not only helps U.S. employers maintain a legal workforce
and protect jobs for authorized U.S. workers, it improves the accuracy of wage and tax
reporting. To comply with the OMB requirement, SSA registered to use E-Verify
beginning in September 2007. As of April 2009, SSA had 172 registered users in SSA
Headquarters and its 10 regional offices.

SCOPE AND METHODOLOGY
SSA’s Human Resource Management Information System (HRMIS) 7 showed that for
Fiscal Year (FY) 2008 through March 31, 2009, SSA hired 9,311 new employees. To
determine whether SSA verified the employment eligibility of these new hires, we
obtained the E-Verify transactions SSA submitted from October 1, 2007 to
April 30, 2009. See Appendix C for more details about our scope and methodology.

RESULTS OF REVIEW

SSA did not always use the E-Verify program as intended. Specifically, we found that of
the 9,311 new employees hired in FYs 2008 and 2009,

               Figure 1: Verification of                 •   E-Verify was not used to confirm
                   SSA New Hires                             the employment eligibility of
                                                             1,767 (19 percent) new hires;
                                                             44 of these new hires would have
    Verified
                                                             received an SSA TNC response
     81%                                                     or been referred to DHS had SSA
                                                             verified them through E-Verify,
                                                             and
                                             Not
                                           Verified      •   E-Verify was used to confirm the
                                            19%              employment eligibility of
                                                             7,544 (81 percent) new hires.




6
 OMB Memorandum M-07-21, Verifying the Employment Eligibility of Federal Employees,
August 10, 2007.
7
  HRMIS is an electronic personnel database that contains information regarding SSA employees and
their employment history. It contains information on employees, positions, training, and awards.
Page 4 - The Commissioner

In addition, we determined that SSA did not always comply with the requirements of the
E-Verify MoU. Specifically, we found that SSA had verified the employment eligibility of
26 existing employees because they had applied for new positions in the Agency. In
addition, SSA erroneously verified the employment eligibility of 31 volunteers who were
not considered Federal employees for any purpose. Furthermore, we found SSA had
verified the employment eligibility of at least 18 external candidates who had applied for
jobs at SSA but were not hired. Thus, it appeared the Agency used E-Verify procedures
for verifying these individuals prior to their hire date, which is prohibited.

Finally, while SSA verified the employment eligibility of 7,544 new hires, we found that
about 3,658 (49 percent) did not appear to be verified timely. The E-Verify MoU
requires that employers verify new hires within 3 business days from their date of hire.
In analyzing the timeliness of the verifications, we used 7 calendar days (5 business
days) as a benchmark to account for the mailing of the Form I-9. Based on the
7 calendars days, we determined that 25 percent of the new hires was verified from 1 to
202 days before the date of hire, 8 and 24 percent was verified from 8 to 522 days after
the date of hire (see Table 1 below).

              Table 1: Number of Days Verified Through E-Verify Program
                                           Number of
               Range of Days Verified        Records         Percent
                              Verified Before Hire Date
                         31 to 202                          84                    1
                          9 to 30                        1,050                   14
                           1 to 8                          740                   10
                           Total                         1,874                   25
                                          Verified on Time
                           0 to 7                        3,886                   51
                                      Verified After Hire Date
                         8 to 30                         1,308                   17
                        31 to 100                          361                    5
                        101 to 522                         115                    2
                          Total                          1,784                   24
                       Grand Total                       7,544                  100

NEW HIRES VERIFIED USING E-VERIFY

Of the 9,311 employees hired in FYs 2008 and 2009, our review of E-Verify records
showed SSA verified the employment eligibility of 7,544 (81 percent). The E-Verify
program provided an immediate “employment authorized” response for 7,537 of the
7,544 new hires, indicating they were authorized to work in the United States. SSA
initially received an SSA TNC response for the remaining seven new hires because the
information entered by the employer did not match SSA’s Numident. We determined
that five of the seven new hires had a name change but failed to notify SSA. As of
8
  To assess the timeliness of the verifications, we used the employee’s date of entry because this was the
first day that SSA staff would have reviewed and completed the Form I-9.
Page 5 - The Commissioner

June 2009, the five new hires had resolved their SSA TNCs. One new hire received an
SSA TNC response because it appeared the Numident record included an incorrect
spelling of her last name. As of June 2009, the Numident had not been updated, and
the SSA TNC had not been resolved. Finally, one new hire received an SSA TNC
because her citizenship status showed she was not eligible to work. According to SSA
staff, this individual failed to provide the proper work authorization documentation and
was terminated in June 2008.

NEW HIRES NOT VERIFIED USING E-VERIFY

SSA did not use E-Verify to confirm the employment eligibility for 1,767 (19 percent) of
the 9,311 new hires. 9 According to the E-Verify MoU, an employer must use E-Verify
for all new hires and should not verify selectively. Among the 1,767 new hires, were
1,172 new hires who did not have prior Federal employment, 541 new hires who
previously worked for the Government, and 54 new hires who transferred from other
Federal agencies with no break in Federal employment. According to SSA staff,
transferees who have no break in Federal employment are not required to be verified
through E-Verify. SSA relies on the former agency’s favorable suitability determination
for transferees to determine their eligibility to work, which is permitted in Executive
Order 13488. 10 According to SSA staff, the reciprocal recognition for transferees can
eliminate the need for SSA to use E-Verify because the employee’s employment
eligibility should have been confirmed by the former agency. Furthermore, SSA staff
stated that, although E-Verify is the Agency’s primary resource for identity and work
authorization of all new hires, the Agency can also verify work authorization by obtaining
an Office of Personnel Management (OPM) background investigation and/or viewing the
employee’s Numident record.

We reviewed the Numident for the 1,767 new hires to confirm their eligibility to work in
the United States. Our review revealed the following.




9
   SSA hired the 1,767 new employees to fill 162 different positions in the Agency. The top five positions
filled were Student Interns, Service Representatives, Claims Representatives, Benefit Authorizers, and
Benefit Technical Examiners.
10
  When agencies determine individuals’ fitness to perform work as employees in the excepted service or
as contractor employees, prior favorable fitness or suitability determinations should be granted reciprocal
recognition, to the extent practicable. Agencies making fitness determinations shall grant reciprocal
recognition to a prior favorable fitness or suitability determination when (i) the gaining agency uses criteria
for making fitness determinations equivalent to suitability standards established by OPM; (ii) the prior
favorable fitness or suitability determination was based on criteria equivalent to suitability standards
established by OPM; and (iii) the individual has had no break in employment since the favorable
determination was made. Executive Order 13488, Granting Reciprocity on Excepted Service and Federal
Contractor Employee Fitness and Reinvestigating Individuals in Positions of Public Trust, January 2009,
74 FR 4111.
Page 6 - The Commissioner

•    For 1,723 new hires, the reported names, SSNs, and DoBs matched the Numident,
     and the new hires’ citizenship status indicated they were eligible to work in the
     United States. 11 These new hires would have received an employment-authorized
     response had SSA used E-Verify to confirm their employment eligibility.

•    For 39 new hires, the names, SSNs, and DoBs in HRMIS matched the Numident,
     but their citizenship status indicated they may not have been eligible to work in the
     United States. 12 It is possible these employees were eligible to work but had failed
     to report changes to their work authorization status to SSA after being issued their
     SSNs. 13 They were assigned SSNs from 1963 to 2004 that indicated they were not
     eligible to work or were foreign-born individuals whose work authorization status was
     unknown. Had SSA used E-Verify to confirm their employment eligibility, either the
     Agency would have received an SSA TNC response or the case would have been
     referred to DHS to determine their eligibility to work. In addition, we found that 10 of
     the 39 new hires were transferees or former SSA employees. According to SSA
     staff, while E-Verify cannot be used to verify transferees, SSA has other processes
     to determine whether transferees are eligible to work. For example, as part of the
     process for issuing identification badges to employees as required by Homeland
     Security Presidential Directive (HSPD) 12, 14 SSA reviews the Numident for all
     employees, including transferees, to verify their identity and eligibility to work.

•    For three new hires, the last names in HRMIS did not match the Numident. It is
     possible either the new hires failed to notify SSA of a name change or SSA was
     notified but failed to update its records with the name change. These new hires
     would have received an SSA TNC response from E-Verify indicating their SSNs did
     not match SSA’s Numident.




11
  For 16 new hires, the DoB did not match exactly. However, the DoB tolerances used by E-Verify would
have resulted in a match response for these 16 new hires.
12
  For two new hires, the DoB did not match exactly, but the DoB tolerances used by E-Verify would have
provided a match response. These two new hires would have received a no-match response based on
their citizenship status.
13
   We did not contact DHS to confirm the employment eligibility for the 39 employees. We relied on the
information included in SSA’s Numident file. Thus, their citizenship status may have changed since SSA
assigned their SSNs.
14
   OMB Memorandum M-05-24, Implementation of HSPD 12- Policy for a Common Identification Standard
for Federal Employees and Contractors, August 5, 2005. HSPD-12 directs the implementation of a new
standardized badging process, which is designed to enhance security, reduce identity fraud, and protect
the personal privacy of those issued government identification. HSPD 12 requires that Federal agencies
conduct background investigation, including Federal Bureau of Investigation fingerprint check for their
employees. In addition, Federal employees must provide two forms of identification, one of which must
include a photograph.
Page 7 - The Commissioner

•   For one new hire, the SSN in HRMIS was not assigned to the new hire. It is
    possible the incorrect SSN entered into HRMIS was the result of a transposition
    error on behalf of the Agency. We determined the employee’s correct SSN was
    similar to the incorrect SSN entered into SSA’s database. This employee would
    have received an SSA TNC response from E-Verify indicating that her SSN did not
    match SSA’s Numident.

•   For one new hire, the reported DoB in SSA’s HRMIS did not match SSA’s Numident.
    Our review showed there was a 10-year difference in the reported DoB and the DoB
    shown on the Numident. The DoB in HRMIS was January 7, 1975, while the DoB on
    the Numident was January 7, 1985. We discussed this case with SSA staff and they
    believe the disparity in the DoB occurred because of a typographical error.
    However, this error would have been discovered had the Agency used the E-Verify
    program.

VERIFICATION OF NON-SSA EMPLOYEES

We found SSA had verified the employment eligibility of 169 individuals who did not
appear to be current SSA employees. These individuals were not included in SSA’s
human resources records nor did they have SSA wages posted to their earnings
records.

A detailed review for 50 of the 169 individuals revealed the following.

•   31 individuals were SSA volunteers. Regional staff stated they occasionally use
    volunteers to assist with various SSA workloads. SSA accepts voluntary services
    from participants in student internship programs and certain federally funded
    vocational rehabilitation and/or training programs. The volunteers are not
    considered Federal employees for any purpose. However, they may perform SSA
    work, including duties that require limited access to sensitive information. As such,
    they are required to undergo the same personnel security and suitability screenings
    as employees who perform the same or similar duties. Our review showed that
    several regional offices erroneously used E-Verify to confirm the volunteers’ identity
    and work eligibility status. According to the E-Verify MoU, E-Verify should be used
    to verify the work eligibility of employees. We believe SSA needs to provide clear
    guidance to staff reminding them that E-Verify should not be used to verify the work
    eligibility of volunteers because they are not Federal employees.

•   18 individuals were potential candidates for employment, but SSA did not hire them.
    As stated previously, the E-Verify program should only be used to verify new hires
    and cannot be used for any pre-employment screening of job applicants. Therefore,
    SSA should not have used E-Verify to determine their employment eligibility. SSA
    needs to remind personnel staff of the E-Verify requirements for verifying new hires.
Page 8 - The Commissioner

•    1 individual was an SSA employee whose SSN was transposed. SSA discovered
     the mistake and resubmitted her information through E-Verify to confirm her eligibility
     to work.

VERIFICATION OF CURRENT SSA EMPLOYEES

Our review determined that in FYs 2008 and 2009, SSA verified the employment
eligibility of 26 current SSA employees who had applied for new positions in the
Agency. SSA’s HRMIS showed these employees were hired from August 1975 to
August 2007. The E-Verify program prohibits an employer from verifying the
employment eligibility of its current workforce. According to the MoU, an employer must
not verify employees who were hired before the effective date of the MoU. The effective
date of SSA’s MoU was September 2007. According to SSA staff, the 26 existing
employees were verified because they were appointed to new positions in the Agency.
We believe SSA needs to provide guidance to staff that clarifies when it is appropriate
to verify a new employee to help ensure the Agency is adhering to the E-Verify MoU.
The guidance should clearly define who is considered a new hire or an existing
employee for the purpose of verification.

TIMELINESS OF VERIFICATIONS

Although SSA verified the employment eligibility of 3,886 (51 percent) of the 7,544 new
hires within 7 calendar days, we determined the remaining 3,658 (49 percent) new hires
were verified either before they were hired or at least 8 calendar days after they were
hired, which is prohibited by the E-Verify MoU (see Table 1). 15 The MoU requires that
employers verify new hires within 3 business days after they are hired. In analyzing the
timeliness of verifications, we allowed 7 calendar days (5 business days) as a
benchmark to account for SSA’s Servicing Personnel Offices receiving the Form I-9
from the hiring offices. Among the 3,658 new hires, we found the following.

•    1,874 (25 percent) new hires were verified 1 to 202 days before their date of hire,
     with a median of 10 days. For example, SSA verified a new employee on
     December 3, 2007, and HRMIS showed the employee was hired on June 22, 2008.
     Therefore, SSA verified the employee about 202 days before her date of hire. We
     contacted regional staff and determined this occurred because the individual was
     brought on as a volunteer in December 2007 and verified through the E-Verify
     program at that time. The individual was not classified as an SSA employee until
     June 2008 when she was hired as a student intern under the Student Temporary
     Employment Program. In another example, SSA verified an employee on April 14,
     2008, and HRMIS showed the employee was not hired until July 20, 2008.
     Therefore, SSA verified the employee about 97 days before his hire date. We
     discussed this case with SSA staff and learned the individual had initially accepted
     SSA’s job offer, completed section 1 of the Form I-9, mailed the Form to SSA, and

15
  To assess the timeliness of the verifications, we used the employee’s date of entry because this was
the first day that SSA staff would have reviewed and completed the Form I-9.
Page 9 - The Commissioner

      was verified through the E-Verify program at that time. However, the individual
      subsequently declined the job offer and never reported for duty. This individual later
      applied and was hired for another position at SSA on July 20, 2008. The E-Verify
      MoU prohibits an employer from initiating verification procedures before an
      employee has been hired and both sections of the Form I-9 have been completed.
      According to the Form I-9, the employee must complete section 1 at the time of
      employment, and the employer must complete section 2 after they have examined
      the evidence of identity and employment authorization. 16 Verifying an employee
      before his date of hire could be perceived as pre-screening, which is prohibited by
      the MoU. 17

•     1,784 (24 percent) new hires were verified 8 to 522 days after their date of hire, with
      a median of 17 days. For example, SSA verified an employee on April 16, 2009, but
      HRMIS showed the employee’s date of hire was November 11, 2007 indicating SSA
      had verified the employee about 522 days after her date of hire. According to SSA
      staff, the Agency did not always meet the 3-day requirement because of the volume
      of new hires who had to be entered into E-verify. In addition, the Agency had other
      competing priorities (for example, conducting background checks and processing
      payroll transactions) that delayed verifying the new hires.

CONCLUSION AND RECOMMENDATIONS
In FYs 2008 and 2009, SSA (1) did not verify the employment eligibility for about
19 percent of its new hires; (2) did not verify about 49 percent of new hires within
7 calendar days after the new hires’ date of hire; and (3) verified the employment
eligibility of 26 existing SSA employees, 31 volunteers, and at least 18 job candidates,
which was not in accordance with the E-Verify MoU.

We believe by not using E-Verify to confirm the employment eligibility of all its new
hires, SSA increases the risk of hiring individuals who are not eligible to work in the
United States. Further, we believe SSA needs to set an example for Federal agencies
when using E-Verify by making sure all new hires are verified to help maintain a legal
workforce, and improve the accuracy of wage and tax reporting. In addition, the Agency
needs to ensure it complies with all the E-Verify requirements related to existing
employees and job candidates.




16
     An example of the Form I-9 is included in Appendix D.
17
   It should be noted that in July 2009, DHS changed its timeframe rules for verifying the employment
eligibility of new hires. Per DHS, the earliest an employer may initiate a query is after an individual
accepts an offer of employment and both the employee and employer have completed the Form I-9. In
addition, the employer must initiate the query no later than the end of 3 business days after the new hire’s
actual start date.
Page 10 - The Commissioner

Accordingly, we recommend SSA:

1. Ensure the 1,713 new hires discussed in the report are verified through the E-Verify
   program to confirm their employment eligibility and ensure that SSA has complied
   with the E-Verify MoU.

2. Establish guidance that reminds staff to follow the E-Verify MoU regarding
   (1) verifying “all new hires,” (2) conducting verification queries within 3 business
   days after a new employee has reported for duty and both sections of the Form I-9
   have been completed, and (3) prohibiting the verification of existing SSA employees
   and job candidates.

3. Provide written guidance to staff reminding them that E-Verify should not be used to
   verify the work eligibility of volunteers.

4. Resolve the SSA TNC response and update the Numident record for the one
   individual whose last name was misspelled on the Numident.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of the Agency’s comments is
included in Appendix E.




                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Description of the E-Verify Program

APPENDIX C – Scope and Methodology

APPENDIX D – Employment Eligibility Verification (Form I-9)

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
DHS           Department of Homeland Security
DMV           Department of Motor Vehicles
DoB           Date of Birth
FR            Federal Register
FY            Fiscal Year
HRMIS         Human Resource Management Information System
HSPD          Homeland Security Presidential Directive
MoU           Memorandum of Understanding
OMB           Office of Management and Budget
OPM           Office of Personnel Management
Pub. L. No.   Public Law Number
SEVIS         Student and Exchange Visitors Information System
SSA           Social Security Administration
SSN           Social Security Number
TNC           Tentative Nonconfirmation
U.S.C.        United States Code

Forms
Form I-9      Employment Eligibility Verification
Form SS-5     Application for a Social Security Number
                                                                                  Appendix B

Description of the E-Verify Program
E-Verify, formerly known as the Basic Pilot/Employment Eligibility Verification, is a
Department of Homeland Security (DHS) program whereby participating employers
verify whether newly hired employees are authorized to work in the United States.1 The
Social Security Administration (SSA) supports DHS in operating this program.
Employers must register with DHS to access E-Verify. Participating employers input
information about the new hire, including his/her name, date of birth (DoB), and Social
Security number (SSN), as well as whether the new hire claims to be a U.S. citizen or
work-authorized noncitizen (for noncitizens, the DHS-issued alien or admission number
is also entered) into the E-Verify program.

The information the employer submits via E-Verify is sent to SSA to verify the name,
SSN, and DoB against SSA’s Numident 2 records. SSA also provides DHS an indication
of U.S. citizenship, as recorded in SSA’s records. DHS confirms the current
employment-authorization for non-citizens. The E-Verify program will provide one of the
following responses stating that employment eligibility is authorized or employment
eligibility is given tentative nonconfirmation (TNC).

•   Employment Authorized—The data input by the employer matched the information in
    SSA’s and DHS’ databases, and the new hire is authorized to work in the United
    States.

•   SSA TNC—The data input by the employer did not match information in SSA’s
    Numident. If the employee chooses to contest, he or she has 8 Federal workdays to
    visit a local SSA field office to present documentation required to update or correct
    the Numident record.

•   DHS TNC—The data input by the employer for a noncitizen did not match the
    information in DHS’ immigration records and/or the DHS record shows the new hire
    is not authorized to work. If the employee chooses to contest, he or she has
    8 Federal workdays to contact DHS.




1
 Authority for the E-Verify program is found in Title IV, Subtitle A, of the Illegal Immigration
Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, as amended (8 U.S.C. §
1324a note).
2
 The Numident is a record of identifying information (such as, name, DoB, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident Master File.


                                                  B-1
As of the end of Fiscal Year 2009, about 156,000 employers, representing about
605,000 locations, were enrolled to use E-Verify. These employers submitted
approximately 8.5 million queries during this period.

NEW ENHANCEMENTS TO E-VERIFY

According to DHS officials, 3 DHS, in cooperation with SSA, has made several
enhancements to E-Verify to improve accuracy rates, ensure E-Verify is fast and easy
to use, and ensure efficient and effective verification. Some of the enhancements are
discussed below.

Past Program Enhancements

•   In September 2007, DHS instituted an automatic flag notice that allows employers to
    double check the data they entered into the system for those queries that are about
    to result in a mismatch. The change was to help reduce the number of mismatches
    that occur because of data entry errors.

•   In May 2008, the E-Verify program added the Integrated Border Inspection System
    that provides real-time arrival and departure information for non-citizens to its
    databases to prevent mismatches that previously resulted from delays in data entry
    for persons entering the United States through ports of entry.

•   In February 2009, DHS began incorporating passport data into E-Verify to help verify
    citizenship status information in the event of a mismatch with SSA for citizens who
    present a United States passport during the Form I-9 process.

Future Program Enhancements

DHS plans to make the following enhancements in FY 2010.

•   Incorporate the Student and Exchange Visitors Information System (SEVIS) data
    into E-Verify to improve E-Verify's ability to automatically verify international students
    and exchange visitors. By incorporating SEVIS nonimmigrant student visa data into
    the automatic initial E-Verify check, the number of students and exchange visitors
    who receive initial mismatches and then have to contest the initial result is expected
    to reduce.




3
 Interior Enforcement of Immigration Laws: Eliminating Employer Demand for Illegal Immigrants as part
of Comprehensive Immigration Reform, Testimony of Gerri Ratliff, Deputy Associate Director of the
National Security and Records Verification Directorate, United States Citizenship and Immigration
Services, DHS, before the Senate Committee on the Judiciary Subcommittee on Immigration, Refugee
and Border Security, July 21, 2009.


                                                 B-2
•   Expand the types of documents available to the E-Verify system to provide
    photograph confirmation. Currently, only DHS-issued identity documents are
    displayed in the photograph tool, but DHS is seeking to expand the types of
    photographs available in this functionality. This would prevent one possible avenue
    of identity theft currently used to “game” the system.

•   Initiate a State-based Department of Motor Vehicles (DMV) data exchange that
    would incorporate driver’s license photographs into the photograph tool. This would
    represent a significant enhancement to the system since new hires most often
    present a driver’s license for Form I-9 purposes. To date, no State has agreed to
    add its driver’s license data to the photograph tool. As a first step, DHS plans to add
    a function to the system that will allow employers to query by driver’s license
    number. This will confirm the driver’s license number provided by the individual on
    the Form I-9 and his or her name match in the state DMV’s driver’s license system.
    This functionality would be available to any state that chooses to participate.

•   Enable individuals to choose to “lock” and “unlock” SSNs for E-Verify purposes.4
    DHS is aware that identity fraud is a serious concern in the United States and is
    especially concerned with how this practice affects E-Verify and thus the new
    enhancement should help detect and determine fraud.

•   Examine the best ways to validate the legitimacy of employers using the system, the
    individual registrants applying to use the system, and those using the system after
    the enrollment phase. Improving the registration portion of the E-Verify program will
    help ensure that E-Verify has accurate and complete information on those
    employers using the program.




4
 Under the DHS proposal, numberholders who have been victims of identity theft would have the option
of contacting DHS and requesting their SSN be “locked” within the E-Verify program.


                                                 B-3
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws, Social Security Administration (SSA) policies and
    procedures, and the E-Verify User Manual related to the E-Verify program.

•   Reviewed the Memorandum of Understanding (MoU) between the Department of
    Homeland Security (DHS) and the employer that enumerates the specific
    responsibilities of DHS, SSA, and the employer with respect to the E-Verify program.

•   Obtained and reviewed a data extract from SSA’s Human Resource Management
    Information System of 9,311 SSA employees hired from Fiscal Year 2008 through
    March 31, 2009.

•   Obtained and reviewed a data extract of approximately 141,000 former and current
    SSA employees who were included in the Mainframe Time and Attendance System
    as of January 2009.

•   Obtained and reviewed a data extract of approximately 8,600 SSA employees who
    were verified through the E-Verify program between October 1, 2007 and
    April 30, 2009.

•   Reviewed the Numident File for the 1,767 new hires who were not verified through
    E-Verify to confirm the identity and eligibility to work.

•   Held discussions with regional staff to determine why new hires were not always
    verified, existing employees were verified, and new hires were not verified timely.

We found data used for this audit were sufficiently reliable to meet our audit objectives.
The entity responsible for the maintenance of the E-Verify program is the Office of
Personnel under the Deputy Commissioner for Human Resources. Our work was
conducted at the Philadelphia Audit Division, Philadelphia, Pennsylvania, between May
and August 2009. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.
                                       Appendix D

Employment Eligibility Verification (Form I-9)
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      December 30, 2009                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Implementation of the E-Verify Program for New Hires” (A-03-09-29154)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S IMPLEMENTATION OF
THE E-VERIFY PROGRAM FOR NEW HIRES” (A-03-09-29154)


We reviewed the draft report and our responses to the specific recommendations are below.

Recommendation 1

Ensure the 1,713 new hires discussed in the report are verified through the E-Verify program to
confirm their employment eligibility, and ensure that we have complied with the E-Verify
policy.

Comment

We agree that we should verify new hires through E-Verify. In reviewing the 1,713 names OIG
identified, we found a number of employees who did not meet the E-Verify criteria. We would
like to work with OIG to determine which of the employees it identified meet the E-Verify
criteria.

Recommendation 2

Establish guidance that reminds staff to follow E-Verify policy regarding: 1) verifying “all new
hires;” 2) conducting verification queries within 3 business days after a new employee has
reported for duty and both sections of the Form I-9 have been completed; and 3) prohibiting the
verification of existing SSA employees and job candidates.

Comment

We agree. We recently held a meeting with our regions to discuss the E-Verify policy and
related instructions. In addition, we are developing guidance to assist staff in following the
E-Verify policy and related instructions. We plan to release the guidance by the end of
March 2010.

Recommendation 3

Provide written guidance to staff reminding them that E-Verify should not be used to verify the
work eligibility of volunteers.

Comment

We agree. We are developing guidance to assist staff in following the E-Verify policy and
related instructions. We plan to release the guidance by the end of March 2010.




                                                E-2
Recommendation 4

Resolve the SSA Tentative Non-confirmation response and update the Numident record for the
one individual whose last name was misspelled on the Numident.

Comment

We agree. We will take the necessary actions to resolve the Tentative Non-confirmation and
update the Numident.




                                             E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

Acknowledgments

In addition to those named above:

   Frank Trzaska, Senior Auditor

   Richard Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-09-29154.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
